BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Brief of Women Scholars
as Amicus Curiae in Support of Petitioners in 19-431,
Little Sisters of the Poor Saints Peter and Paul Home
v. Pennsylvania, et al., and 19-454, Donald J. Trump,
President of the United States, et al. v. Pennsylvania,
et al., were sent via Three Day Service to the U.S.
Supreme Court, and 3 copies were sent via Three Day
Service and e-mail to the following parties listed
below, this 9th day of March, 2020:
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 349-7208
mrienzi@becketlaw .org

Counsel for Petitioner
Michael J. Fischer
Pennsylvania Office of Attorney General
1600 Arch St., Suite 300
Philadelphia, PA 19103
(215) 560-2171
mfischer@a ttorneygeneral. gov

Counsel for Respondent
Pennsylvania et al.

Commonwealth

of

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite l 02

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Helen M. Alvare
Counsel of Record
Special Counsel,
Thomas More Society
Antonin Scalia Law School
3301 Fairfax Drive
Arlington, VA 22201
(703) 993-9845
halvare@gmu.edu
Thomas More Society
309 W. Washington #1250
Chicago, IL 60606

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 9, 2020.

Julie A. Kershn . t
Becker Gallagh ·r Le al Publishing, Inc.
8790 Governor's · Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

·7n.ut-4t~

cJ;t,,- e . ~

Notary Public
[seal]

